No. 20-74

3f n tbe ~upreme <!ourt of tbe Wniteb ~tates
UNITED STATES OF AMERICA

v.
IMAGE PROCESSING TECHNOLOGIES LLC, ET AL.
ANDREI IANCU,
UNDER SECRETARY OF COMMERCE FOR
INTELLECTUAL PROPERTY AND
DIRECTOR, U.S. PATENT AND TRADEMARK OFFICE
v.

SOUND VIEW INNOVATIONS, LLC, ET AL.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.l(h), I,
Peter C. Magic, a member of the bar of this Court, certify
that the accompanying Brief in Opposition contains 3,590
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.l(d).
Executed on August

l

5

, 2020.

~~

Peter C. Magic
Desmarais LLP
101 California Street
San Francisco, CA 94111
(415) 573-1900
pmagic@desmaraisllp.com

